<html>
<title> - PUTTING AMERICA BACK TO WORK THROUGH CLEAN WATER INFRASTRUCTURE INVESTMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
    PUTTING AMERICA BACK TO WORK THROUGH CLEAN WATER INFRASTRUCTURE 
                               INVESTMENT 

=======================================================================

                               (111-129)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             July 15, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-485 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               TOM GRAVES, Georgia
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
HANK JOHNSON, Georgia

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
STEVE KAGEN, Wisconsin               HENRY E. BROWN, Jr., South 
DONNA F. EDWARDS, Maryland Vice      Carolina
Chair                                TODD RUSSELL PLATTS, Pennsylvania
SOLOMON P. ORTIZ, Texas              BILL SHUSTER, Pennsylvania
PHIL HARE, Illinois                  MARIO DIAZ-BALART, Florida
DINA TITUS, Nevada                   CONNIE MACK, Florida
HARRY TEAGUE, New Mexico             LYNN A WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   CANDICE S. MILLER, Michigan
Columbia                             ANH ``JOSEPH'' CAO, Louisiana
MICHAEL E. CAPUANO, Massachusetts    PETE OLSON, Texas
GRACE F. NAPOLITANO, California      VACANCY
MAZIE K. HIRONO, Hawaii
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
BOB FILNER, California
CORRINE BROWN, Florida
JOHN GARAMENDI, California
HANK JOHNSON, Georgia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)




















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Hawkins, George S., General Manager, District of Columbia Water 
  and Sewer Authority............................................     4
Holloway, Caswell F., Commissioner, New York City Department of 
  Environmental Protection.......................................     4
Marcason, Hon. Jan, City Council Member, City of Kansas City, 
  Missouri, on behalf of the National League of Cities...........     4
Soth, Jeffrey, Assistant Director, Department of Legislative and 
  Political Affairs, International Union of Operating Engineers, 
  on behalf of the National Construction Alliance II.............     4
Vander Molen, Dennis, President, Vermeer Midsouth, Inc., on 
  behalf of the Associated Equipment Distributors................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Johnson, Hon. Hank, of Georgia...................................    30
Mitchell, Hon. Harry E., of Arizona..............................    34

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hawkins, George S................................................    35
Holloway, Caswell F..............................................    39
Marcason, Hon. Jan...............................................    46
Soth, Jeffrey....................................................    51
Vander Molen, Dennis.............................................    55

                       SUBMISSION FOR THE RECORD

Holloway, Caswell F., Commissioner, New York City Department of 
  Environmental Protection, response to request for information 
  from the Subcommittee..........................................    44

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    PUTTING AMERICA BACK TO WORK THROUGH CLEAN WATER INFRASTRUCTURE 
                               INVESTMENT

                              ----------                              


                        Thursday, July 15, 2010

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:40 p.m., in 
room 2167, Rayburn House Office Building, Hon. Eddie Bernice 
Johnson [Chairman of the Cubcommittee] presiding. 
    Ms. Johnson. The Committee will come to order and let me 
first apologize for being late, it is because of votes. And I'm 
aware that Mr. Holloway has to leave not later than 3:30, and 
we will try to make sure you get your testimony in before.
    Today's hearing, of course, will focus on the success of 
clean water infrastructure funding and how that investment has 
helped to create and sustain jobs during the current economic 
downturn.
    Since Congress passed the Recovery Act, this committee has 
been tracking its progress, particularly in terms of 
investments of Recovery Act dollars and clean water 
infrastructure. Successful implementation of this legislation 
has been essential to our collective efforts to turn our 
economy around and create well-paying jobs here in America. I 
am happy to report that of the $4 billion provided by the 
Recovery Act for the Clean Water State Revolving Fund programs.
    The Environmental Protection Agency has awarded 100 percent 
of these funds and capitalization grants to States. Further, 
according to the EPA, some 5,177 jobs were created with these 
monies. That really is good news, sometimes we can't tell it.
    In my home State of Texas, as of May 31st, 2010, all of our 
funds have been committed and are under contract, and all of 
the projects are underway. Approximately, $172 million has been 
allocated for 20 projects. And according to figures collected 
by this committee, this funding has created a sustained 286 
jobs in May of this year alone. Those are jobs that would have 
been lost or never created. And these are 20 projects that 
never would have seen the light of day.
    I would like to see this the continued success through the 
Clean Water State Revolving Fund. In order for that to happen, 
Congress needs to reauthorize the program to allow for more 
adequate appropriations to EPA, to make capitalization grants 
to States for clean water infrastructure. This House has 
already passed the Water Quality Financing Act of 2009 which 
would do just that.
    Also, the Energy and Commerce Committee has done their part 
by moving their legislation to reauthorize the drinking water 
state revolving fund out of their committee. We hope that the 
House will soon have the opportunity to vote on it. The Senate 
has also moved their legislation to reauthorize both the Clean 
Water State Revolving Fund and the Drinking Water State 
Revolving Fund out of the environmental and public works 
committee.
    It is my sincere wish that both Chambers will meet in 
conference so that we can finally get this vital legislation 
signed into law. We need to do this so that these important 
programs can continue to fund this critical infrastructure and 
provide more good jobs for working Americans. I look forward to 
hearing from all of our witnesses today on the importance of 
continuing investment in clean water infrastructure.
    The chair now recognizes our ranking member, Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair for holding this 
important hearing. The Congressional Budget Office EPA and the 
Water Infrastructure Network have estimated that it could take 
between 300 and $400 billion to address our Nation's clean 
water infrastructure needs over the next 20 years to keep our 
drinking water and waterways clean and safe. This is twice the 
current level investment by all levels of government. These 
needs are being well documented in our subcommittee prior 
hearings. It was 1 year ago today that we held a similar 
hearing on the benefits of wastewater infrastructure. Our 
Nation's quality of life and economic well-being rely on clean 
water. Our Nation has invested over 250 billion on wastewater 
infrastructure to provide adequate wastewater treatment so that 
we can keep our waters clean.
    This investment has provided significant, environmental and 
public health benefits and contributes over $300 billion of 
economic benefits to the Nation each year. The challenge to 
continue providing clean water remains as our existing national 
wastewater infrastructure is aging and deteriorating and in 
need of repair, replacement and upgrading.
    In March 2009, the House of Representatives passed 
legislation that would authorize increased funding for 
wastewater infrastructure through a reauthorization of the 
Clean Water State Revolving Loan Fund administered by EPA. This 
bill is designed to help communities meet their growing demand 
for wastewater infrastructure needs and improve water quality. 
While I remained genuinely concerned regarding the adverse 
effects that the Davis-Bacon providing wage requirements will 
have on jobs and clean water. I supported the legislation on 
balance. If we do not start investing in our wastewater 
infrastructure now, it is going to cost our Nation billions 
more in the future. And when we do invest Federal funds in 
infrastructure, we need to do it in ways that will give us the 
best clean water value for the dollar.
    For many families in America, the recession is far from 
over as unemployment continues to increase. We can debate the 
merits and demerits of the stimulus package enacted in 2009, 
but I think we have a bipartisan agreement here on the 
committee that not enough money has been devoted to job 
creating infrastructure projects. Today's hearing will 
highlight the positive ripple effects in the economy provided 
by investments in clean water infrastructure projects.
    The debate has moved beyond the calculation of job creation 
statistics. Debating job creation and its associated statistics 
are irrelevant. We all know that a robust economy produces 
jobs. Yet, according to the Associated General Contractors, 
22,000 jobs were lost in the construction trades market during 
the month of June and unemployment construction trades remains 
at 21 percent. These are not positive trends and it is clear 
that the stimulus bill did little to create jobs.
    Too many stimulus dollars were allocated to other types of 
frivolous spending while too few dollars were devoted to 
infrastructure projects that not only produce jobs, but also 
lasting public benefits.
    The administration claimed the stimulus package would help 
the unemployment from going above 8 percent. However the Nation 
has had an unemployment rate of close to 10 percent for the 
last year. Now some of the administration are saying that the 
stimulus package was necessary to keep unemployment from below 
12 percent. Given the fact that the transportation projects and 
other infrastructure projects like flood damage reduction and 
wastewater treatment projects provide economic benefits to the 
Nation, the administration and the Congress need to place a 
higher priority on the work of the Army Corps of Engineers and 
EPA's Clean Water State Revolving Loan benefit loan fund and 
Brownsville program.
    Without efficient transportation systems the Nation's 
competitives will suffer. Without a strong economy, the 
Nation's environment will suffer, without--it is evident that 
we are now paying a heavier price for a stimulus bill that 
shortchanged the infrastructure investment.
    I would like to offer special welcome to one of our 
witnesses, Dennis Vander Molen, whose company has a number of 
important facilities in my congressional district in Arkansas. 
I thank you, Madam Chair, for holding this important hearing 
again, and I look forward to hearing from our witnesses.
    Ms. Johnson. Thank you very much. I now will go directly to 
the panel. Our first witness this afternoon is Councilwoman Jan 
Marcason, she is a city council member for the City of Kansas 
City, Missouri. However, today she is testifying on behalf of 
the National League of Cities.
    Next is Mr. Caswell Holloway. Mr. Holloway is Commissioner 
of the New York City State Department of Environmental 
Protection. I know you have to leave. In your testimony that 
you submitted, you talked about the timing of which this had to 
come and it could have been better used. Would you comment on 
that when you are testifying?
    And our third witness is Mr. George Hawkins. He is the 
general manager of the District of Columbia water and sewer 
authority.
    Our fourth witness is Mr. Dennis Vander Molen. He is 
testifying on behalf of the Associated Equipment Distributors 
today.
    And lastly, Mr. Jeffrey Soth, who will testify on behalf of 
the National Construction Alliance II. Your full statements 
will be placed in the record so we ask you to limit your 
testimony to 5 minutes.

 STATEMENTS OF HON. JAN MARCASON, CITY COUNCIL MEMBER, CITY OF 
  KANSAS CITY, MISSOURI, ON BEHALF OF THE NATIONAL LEAGUE OF 
   CITIES; CASWELL F. HOLLOWAY, COMMISSIONER, NEW YORK CITY 
  DEPARTMENT OF ENVIRONMENTAL PROTECTION; GEORGE S. HAWKINS, 
     GENERAL MANAGER, DISTRICT OF COLUMBIA WATER AND SEWER 
 AUTHORITY; DENNIS VANDER MOLEN, PRESIDENT, VERMEER MIDSOUTH, 
 INC., ON BEHALF OF THE ASSOCIATED EQUIPMENT DISTRIBUTORS; AND 
JEFFREY SOTH, ASSISTANT DIRECTOR, DEPARTMENT OF LEGISLATIVE AND 
POLITICAL AFFAIRS, INTERNATIONAL UNION OF OPERATING ENGINEERS, 
       ON BEHALF OF THE NATIONAL CONSTRUCTION ALLIANCE II

    Ms. Johnson. We know we are late, and I know some of you 
are on a tight schedule now so thank you and I now recognize 
Ms. Marcason.
    Ms. Marcason. Good afternoon, Madam Chairman and Ranking 
Member Boozman and members of the Committee. I am Jan Marcason, 
a city councilwoman from Kansas City, Missouri. I am here on 
behalf of the National League of Cities, the oldest and largest 
organization representing cities and towns across America. I 
appreciate the opportunity to share our perspective on the 
important role of water infrastructure investment in creating 
jobs, protecting the environment and improving the quality of 
life in our home towns, and specifically, in my hometown of 
Kansas City, Missouri.
    Thank you, Madam Chairwoman, for your resent visit to 
Kansas City to see firsthand the green infrastructure solutions 
that our city is incorporating in its overflow control plan. We 
were also pleased to host Chairman Oberstar who came to Kansas 
City to learn more about our infrastructure plan. As you 
witnessed, Kansas City is implementing an innovative and 
ambitious plan to improve the city's water quality by 
overhauling our sewer system and implementing green 
infrastructure solutions such as rain gardens and bioretention 
facilities to intercept, store and infiltrate storm water 
runoff, thereby significantly reducing discharges of untreated 
sewage that overflows into our lakes, streams and rivers.
    Kansas City's plan was developed with the significant input 
of our community stakeholders. We undertook a large scale 
community involvement project to gather information from 
residents about the kinds of improvements that they would like 
to see in their neighborhood. The Wet Weather Community Panel 
was comprised of 20 citizens and subject matter experts that 
met every month for 5 years. I served as the city council 
liaison to that panel. It became clear that the community 
wanted more than just new pipes and treatment facilities. They 
wanted multiple benefits often called the triple bottom line.
    The multiple benefits include environmental, social and 
financial benefits from our infrastructure improvements. 
Residents and business owners both want clean water, but they 
also want attractive sidewalks to encourage walking and way to 
reduce speeding on their neighborhood streets. They want 
infrastructure improvements to encourage business development 
in underserved neighborhoods in particular. And they want a 
system that is affordable for residents and business customers.
    The plan that Kansas City developed is a cost-effective 
approach to addressing our aging infrastructure. Green 
solutions actually reduced the cost of implementing our plan. 
In the target green pilot project area of 100 acres, the city 
will save an estimated $10 million by implementing green 
solutions instead of the traditional retention tanks that were 
first proposed to address storm water runoff. The investment 
our city is making will have a tremendous impact on our local 
economy. Our plan is a 25-year, $2.5 billion program, the 
largest economic development project in our city's history. It 
is projected that it will create nearly 20,000 good paying jobs 
over the life of the project, some in the areas of the emerging 
technology, and others in design, engineering and construction. 
The 28 communities served by Kansas City Water Services 
Department will all be direct beneficiaries of these 
improvements and will also benefit from the economic 
development opportunities provided by the system.
    Local engineering companies, nonprofit job training 
organizations, and educational institutions are all working 
together to prepare the workforce for the multitude of jobs 
that implementing our plan will require. To the extent that our 
water infrastructure is properly maintained and can adequately 
meet the needs of our communities, it will help ensure the 
long-term vitality of our cities.
    As Kansas City is demonstrating investment in water 
infrastructure and other infrastructure systems will create 
good paying jobs and enable business development that is the 
essential component to a thriving local economy. However, 
improving the infrastructure system to protect the public 
health and promote our local economies requires a substantial 
investment.
    The latest U.S. EPA clean water sheds needs survey of 
January 2008 documents a nearly $300 billion need for 
wastewater and storm water management over the next 20 years. 
My own State of Missouri documented needs totaling 6 per $5 
billion.
    Federal assistance in meeting these needs has declined by 
75 percent over the last 20 years, while municipal costs for 
operation and maintenance of our aging systems has dramatically 
increased. Given the level of need governments at all levels 
must do more to protect and modernize our Nation's water 
infrastructure systems. In terms of the Federal Government, 
this means reauthorizing and fully funding the Clean Water 
State Revolving Loan Fund program by fully funding this program 
and its companion, the Drinking Water SRF, and including 
requirements that States make a portion of such funds available 
as grants to local governments.
    The Federal Government can help ensure that communities 
have the resources needed to protect and maintain the 
wastewater and drinking water treatment facilities that serve 
our residents and businesses. To help fund implementation of 
our plan, Kansas City is requesting Clean Water SRF funds loans 
and grants from the State of Missouri. However, the city is 
relying on user fees and rate increases to residents to pay for 
our overflow control plan. So far, these fees and rate 
increases have not been insignificant. Since 2008 the average 
residential water utility bill has increased 44 percent. In 
order to keep future fees and rates affordable to our citizens 
and our businesses, the availability of funds through the SRF 
program is essential.
    The National League of Cities wants to thank the committee 
for its leadership in approving legislation and reauthorizing 
the Clean Water SRF program. NLC supported the Water Quality 
Investment Act of 2009 that passed the House last year, and 
continues to urge the Senate to bring similar legislation to 
the floor for consideration. I want to thank you for the 
opportunity to speak to you on behalf of America's cities and 
towns. On behalf of the National League of Cities, I have 
submitted written testimony for your consideration and I look 
forward to your questions later on. Thank you.
    Ms. Johnson. Thank you very much. Mr. Holloway.
    Mr. Holloway. Thank you, good afternoon, Madam Chair. I am 
Cas Holloway, Commissioner of the New York City Department of 
Environmental Protection, or as we are known in New York City, 
DEP. On behalf of Mayor Michael R. Bloomberg, thank you for the 
opportunity to testify about the critical water on wastewater 
infrastructure challenges that we face serving 9 million New 
Yorkers, 8 million in the city and 1 million more upstate in 
New York.
    Over the past 7 years we have invested $19 billion in our 
water and wastewater infrastructure and our budgeted amount for 
the next 4 years is $6 billion. We employ 6,000 men and women 
who provide water and sewer services to the residents of New 
York City as well as commuters and out-of-towners. We manage 
the city's water supply providing more than a billion gallons 
of water a day from a watershed that extends 125 miles from New 
York City.
    We have 7,000 miles of aqueducts, tunnels and water mains 
that bring water to homes and 7,400 miles of sewer lines that 
take approximately 1.3 billion gallons of wastewater to one of 
our 14 in-city treatment plants every day. That infrastructure 
could crisscross the country twice.
    DEP also has one of the largest construction budgets in the 
region. We currently have $11 billion of work under 
construction, and 3 billion more in planning or design. And as 
I noted, our capital budget for the next 4 years is 
approximately $6 billion, which we estimate will generate 
approximately 9,200 construction jobs. We receive 219 million 
in ARRA funding, and that was critical. We estimated it will 
create as many as 1,400 jobs to do vital work in the wastewater 
and water area that I will discuss in a minute or two.
    A majority of DEP's capital spending over the past 8 years 
has been dedicated to meeting unfunded Federal and State 
regulatory mandates that require the simultaneous completion of 
massive capital projects on tight construction schedules. Some 
of our largest current projects went to bid at the height of 
the construction market in 2006 and 2007. Not because of a 
pressing public health need, but because of Federal and State 
mandates that didn't take account of New York City's particular 
needs.
    Many of our mandates could have been stretched or modified 
without any appreciable impact on public health of the 
environment. Which would have enabled us to build less at the 
same time and focus more resources on maintaining our current 
infrastructure in a state of good repair.
    It is time for the national clean water strategy to evolve 
from a one-size-fits-all mandate and enforcement approach to a 
strategy that recognizes and funds the individual needs of 
water and wastewater utilities based on clearly demonstrated 
public health need and water quality benefits. And I think the 
funding that we have seen in the ARRA Act and its support for 
things like green infrastructure are really a trend in the 
right direction.
    Using our own history as an example, about 69 percent of 
the $19 billion that we spent in the last 7 years have been 
used to fund construction for Federal and State mandates and 
they have contributed to a 24 percent increase in water rates 
over that same period.
    Many of the increases that I just mentioned don't always go 
where the cities most needs it. For example, there are still 
thousands of New Yorkers who lack sanitary sewer and tens of 
thousands of New Yorkers who lack storm sewers, completing the 
full build out of that system is an important priority for New 
York. But we have had to defer many projects until legally 
mandated work is complete. For example, as a result of a 
mandate, we recently completed construction on a $422 million 
tank to deal with combined sewer overflow that will have a 
valuable but extremely limited impact on one tributary in New 
York Harbor.
    What we are looking to do is move forward with a broader 
green infrastructure approach and Council Member Marcason 
mentioned that. And we think that the fact that the 2009 ARRA 
allowed up to 20 percent of the $4 billion that was put in the 
State revolving funds to be used for green infrastructure is a 
great step in the right direction.
    The ultimate success, though, is going to depend on the 
willingness of our regulators at the State and Federal level, 
that is, the EPA and State DEC, to embrace these new methods in 
a collaborative and flexible approach rather than a one-size-
fits-all approach.
    Now, the grand provisions of ARRA were an extremely welcome 
return to the pattern of Federal environmental funding that 
drastically declined at the end of the 1980's and essentially 
ended at the end of the 1990's. We received $219 million, as I 
noted, and we are moving forward with nine separate projects 
that are going to reduce our energy emissions, make our plants 
more efficient, and provide update critical infrastructure that 
really wouldn't have moved forward at all, but for this 
critical funding.
    Overall, ARRA has allowed DEP to move on projects that 
would have been shelved or delayed. However, using the State 
Revolving Fund Loan program did create certain difficulties as 
it has restrictions and administrative burdens that don't allow 
us to use money as flexibly as we would like to.
    If Congress considered a second ARRA program, we recommend 
making it a 100 percent grant program and perhaps add an 
element that provides for direct grants to localities like New 
York City, with the demonstrating capacity to put dollars to 
work quickly and create jobs and provide the public benefit, 
Madam Chair, that you and Mr. Boozman talked about at the 
beginning of the hearing.
    We also recommend an extension of the Build America Bonds 
program which is providing our water and sewer system with more 
cost effective financing for capital projects.
    Before closing, I just want to say a couple quick word 
about the Water Quality Investment Act of 2009, which embodies 
a comprehensive approach to clean water initiatives and 
infrastructure financing. The reauthorization of 13.8 billion 
over 5 years recognizes the range of needs, large and small, 
for water and wastewater systems. We support the 30 percent SRF 
funds to be used for forgiveness of principle and negative 
interest loans. We support authorizing 2.5 billion over 5 years 
for grants for combined sewer overflows. And we support the 
elements for water conservation, which were important parts of 
the Mayor's PlaNYC program. Our blueprint for a sustainable 
city that has become a national model.
    We are pleased to see that the legislation seeks more 
research about pharmaceuticals while the presence of the 
potential pharmaceutical and the water supply has raised a lot 
of attention lately. It is critically important that any new 
regulation in this area be based on demonstrated public health 
need and not simply the availability of monitoring or treatment 
technology.
    In conclusion, I believe that ARRA has been a success when 
it comes to projects undertaken by DEP. Those funds allowed us 
to create jobs and productive assets that serve the public for 
years to come. However, much remains to be done to ensure that 
Federal standards, if they are to be imposed, actually achieve 
water quality and public health benefits and come with the 
funding necessary to carry them out. Otherwise, unfunded 
mandates will continue to substitute Federal and State 
judgement about system needs for the judgment of cities like 
New York with expertise and experience to make smart 
investments that have a large public health return with lowest 
cost. Thank you very much for the opportunity to testify and I 
look forward to your questions.
    Ms. Johnson. Thank you very much.
    Mr. Hawkins.
    Mr. Hawkins. Good afternoon. Good afternoon Chairwoman 
Johnson, Ranking Member Boozman, members of the Subcommittee of 
Water Resources and the Environment. My name is George Hawkins, 
the general manager of the DC Water, the utility that provides 
water to every building in the District of Columbia, including 
this one. One of my goals some day is actually to have D.C.'s 
finest up here as the drinking water and can talk to you about 
that in the days ahead.
    I am delighted to be here to testify with one fundamental 
message: It is my thesis that a dollar spent on water and 
wastewater infrastructure is the single best Federal dollar 
that can be invested in this country, and I would like to do a 
very short summary to suggest why.
    First is to the benefits of using DC Water as the example. 
Number 1, this is a dollar that achieves vital environmental 
improvements. In the Chesapeake Bay, we know how much attention 
has been applied to the Chesapeake Bay. There is only one place 
that achieve the 2010 goals, clean-up goals for the Chesapeake 
Bay nitrogen removal, that was the DC Water's Blue Plains 
Treatment plant just in the southern part of the city. That was 
a billion dollar investment over the last 10 years made by the 
Federal Government, made by Washington, D.C., and with 
jurisdictions in Maryland and Virginia, able to achieve the 
goals for 2010.
    We will also achieve with a $900 million expenditure the 
next level of goals for the Chesapeake scheduled for 2015. So 
there is direct and immediate environmental benefits to water 
features and natural resources that are absolutely vital to us 
as a society.
    Second is the service which provide. There is no job, there 
is no business, there is no building, there is no home that can 
get a certificate of occupancy without adequate connection for 
water and sewer service. That is one of the only obligations 
you must have, and without with you cannot get in a building. I 
have been there because I used to run the permitting agency. In 
that respect, I believe water and wastewater can take some 
credit to every job in Washington, D.C. Because they all rely 
fundamentally on the service we offer. But the second feature 
of that is I regularly attend when we have disruptions to 
service, I will discuss in the minute the age of the system in 
our fair national capital city, but when this service is not 
available, there is an immediate negative consequence to every 
homeowner, to every business and to every neighborhood when you 
are not able to provide water and wastewater services. The 
restaurants close, the hotels close, the businesses close, 
because they can't stay open without our service. There is a 
fundamental service.
    Third is obviously the jobs, DC Water has 1,200 members of 
what I call team blue. We have five unions and one of the 
largest blue collar workforces in Washington. We have direct 
connection to training programs in the high schools in the city 
as well as the University of District of Columbia. These are 
not only jobs, but many of these jobs are entry-level positions 
that are accessible to people who are not always part of the 
rest of the job market. We offer positions and opportunities 
that are unique in this city and are growing. Over the next 10 
years, we anticipate we will be hiring more through 
contractors, 7 to 900 more jobs in order to continue improve 
infrastructure the city. So a dollar spent on infrastructure 
provides environmental benefit, provides services and provides 
jobs.
    What is the need? I will use our fair city as the example. 
The average age of the water pipes that serve this building and 
every other building in this city is 77 years. Ten percent of 
the pipes in the city were put in before 1900, 3 percent before 
the Civil War. It is no wonder that they break with regularity. 
We have, as a country, not been investing the funds needed to 
update these absolutely critical infrastructure. And who is 
surprised when the line straight up Pennsylvania Avenue 21st 
just 2 weeks ago broke when it was put in the ground in 1857, 
that is an infrastructure need that is critical, it is daily 
and in every major city in the United States.
    We are doing our part. Of course, we seek support from the 
Federal Government. I just finished 20 outreach meetings all 
over the city including one last night. We have proposed a 12-
1/2 percent rate increase for our residents in D.C. to provide 
this service; that is no small task in the middle of a 
recession, but that is what we feel is necessary in order to 
improve the infrastructure that is so vital to all of us.
    And last, your role. There is no question in our mind that 
funds that come to us with the clean revolving fund as well as 
the drinking water revolving fund as supplemented by ARRA funds 
had been integral to our ability to provide this service, to 
drive additional jobs and do additional projects and to lessen 
the burdens on our rate payers. It is city agencies, in many 
respects, that are doing a lot of these expenditures. And as 
much as other lobbies and otherwise legitimately raise concerns 
about costs to their members. Fair enough. But remember who has 
been bearing the burden in this city and so many others, it is 
some of our lowest income people who have suffered these rate 
increases, including here in Washington, DC.
    I stood in front of an audience last night presenting 12-1/
2 percent increase, this was after a 9 percent increase last 
year and a projected 9 percent increase next year. So we are 
stepping up at the local level with the people who serve us, 
and we are so grateful of the support that has been supported 
in the past from the Federal Government. But as I have 
suggested, the dozens, we have 97 projects ultimately that are 
planned, that are connected to stimulus funds, not as many as 
we would have liked have been initiated, they are all under 
contract. The permitting process, I am now actually the 
regulated party, I was the regulator for years. We have been 
waiting to be able to get some of our permits, but there will 
be hundreds of jobs in this city connected to people who need 
them, driven by Federal funding that will then support the city 
that we so much love. So I am grateful for the opportunity, I 
will be delighted to answer questions. Glad to be here today, 
thank you.
    Ms. Johnson. Thank you very much.
    Mr. Vander Molen.
    Mr. Vander Molen. Thank you, and good afternoon, Chairman 
Johnson and Ranking Member Boozman and other distinguished 
members of this subcommittee. It is my pleasure to appear 
before you today both as a small business owner who is directly 
affected by the water infrastructure investment, and also in my 
capacity as the 2010 AED chairman. AED is an international 
trade association that represents independent authorized 
distributors of construction, mining, forestry and agricultural 
equipment. And Vermeer Midsouth is a family-owned company which 
headquarters in Memphis, Tennessee, and we rent, and sell, and 
support Vermeer construction equipment throughout the four 
States of Mississippi, Arkansas, north Louisiana and west 
Tennessee. And of course, we have a couple of locations in 
Congressman Boozman's areas of Russellville and Springdale.
    I appreciate the opportunity to come before this 
subcommittee to discuss how equipment distributors and other 
small companies are affected by the State Revolving Fund 
programs and water infrastructure investment in general. I 
would like to really take my time to highlight three key 
issues.
    First, the construction equipment industry has been 
affected as much as any other in this economic downturn. For 
us, the recession has been nothing short of a depression. A 
study conducted last year by Global Insight for AED and the 
Associated Equipment Manufacturers painted a very grim picture. 
From 2007 to 2009, spending on construction machinery fell 50 
percent. Over the last 3 years, equipment manufacturers 
distributors and maintenance providers shed 257,000 jobs, 
representing a stunning 37 percent of our workforce. The 
effects of our industry downturn have been felt well beyond the 
dealer yards and manufacturing plants. Global Insight also 
estimated that the equipment industry depression has cost an 
additional 274,000 jobs in a broader economy. In total, the 
downturn in the equipment industry has cost 550,000 jobs 
nationwide since 2006.
    My second point is that the water infrastructure investment 
including a multiyear reauthorization of both the drinking 
water and the Clean Water State Revolving Fund programs is one 
of the keys to the recovery in the equipment industry. An 
estimated $0.12 of every dollar invested in water 
infrastructure construction is used by contractors to buy and 
rent and service equipment. The Water Quality Investment Act, 
which would authorize more than 14 billion over 5 years for the 
Clean Water SRF would create an estimated 1.68 billion in 
market opportunity for our members over the life of that bill.
    I would commend this subcommittee for its leadership on 
this important legislation which will put people back to work 
in well paying, manufacturing and sales and product support 
jobs in communities throughout the country.
    My third and final point is that increased water 
infrastructure investment at the Federal level will have 
benefits well beyond the equipment industry. Last summer, the 
Clean Water Council of which AED is a leading member announced 
the results of a highly anticipated study regarding the 
economic impact of water infrastructure investment. 
Specifically, the report showed that a $1 billion investment in 
water infrastructure generates 2.87 and 3.46 billion in 
economic activity, and creates more than 26,000 new jobs. About 
half of those jobs are in industries outside of water and 
wastewater construction, further illustrating the broad reach 
of the initial investment. Each $1 billion invested also 
generates approximately 82.4 million in State and local tax 
revenue.
    In addition to the positive economic impact, the increased 
water infrastructure investment will have significant 
environmental and public health benefits. EPA recently released 
a new clean water sheds needs survey which estimated that as of 
January 1, 2008, national capital investment needs for 
wastewater pollution control are $298 billion. Those needs are 
in addition to the 334 billion investment EPA estimates to 
repair and rebuild our Nation's water infrastructure.
    To sum it up, our Nation faces an unparalleled 
infrastructure crisis. Immediate and aggressive congressional 
action is necessary to ensure that our water infrastructure 
systems do not deteriorate further, and that the Federal 
Government has the resources it needs to address the crisis. 
The problem will be only more expensive to solve as the time 
goes on. It is for the foregoing reasons that AED urges 
Congress to rapidly enact long-term sewer and drinking water 
SRF reauthorization bills to dramatically increase investment 
and to create sustainable revenue strains and funding 
mechanisms.
    We look forward to working with the members of this 
subcommittee and with your House and Senate colleagues in a 
bipartisan manner to achieve these goals. Thank you for the 
time to share with you, and I would be glad to answer any 
questions.
    Ms. Johnson. Thank you very much.
    Mr. Soth.
    Mr. Soth. Thank you, Chairwoman Johnson, Ranking Member 
Boozman and distinguished members of the Water Resources and 
Environment Subcommittee. My name is Jeffrey Soth. While I am 
the assistant director of the legislative and political 
department for the International Union of Operating Engineers, 
I am testifying today on behalf of the National Construction 
Alliance II, a partnership between two of the Nation's leading 
construction unions, my union, the Operating Engineers, and the 
United Brotherhood of Carpenters and Joiners.
    The two unions of the Alliance represent nearly 1 million 
workers, many of the same workers who built the Nation's clean 
water infrastructure. We sincerely appreciate the opportunity 
to join you today and testify.
    Chairwoman Johnson, NCA II sincerely values the commitment 
made by Congress and the administration in the Recovery Act to 
reenergize the national economy through infrastructure 
investments, particularly clean water investments. Those 
outlays, quite literally, pulled the construction industry back 
from the precipice. The sector, however, is still on the ledge. 
But one thing is perfectly clear, more can and should be done 
by Congress to put America back to work through clean water 
infrastructure investment. Construction spending was down over 
13 percent in the first 4 months of 2010 as compared to 2009. 
And as you know, 2009 was one of the worst years on record for 
the industry.
    Last year the unemployment rate peaked at over 21 percent. 
This year, the employment rate in construction reached over 27 
percent. The unemployment rate today is still over 20 percent. 
Since its peak in 2006, construction employment has fallen by 
over 2.1 million jobs, or 28 percent of the construction 
workforce in the industry.
    Unfortunately, the same holds true for employment in the 
water and sewer systems sub sector of construction. I refer you 
to the chart on the last page of my testimony where you can see 
the precipitous drop in employment in the last 2 years from 
2007 to 2009. Employment in the subsector dropped by over 21 
percent between those years.
    Obviously there are thousands of carpenters and operating 
engineers' families behind those numbers. The NCA II firmly 
believes that the best way to restart the ailing construction 
economy is to get Americans back to work by building the 
Nation's wastewater systems. These investments will employ 
thousands of construction workers, clean up the Nation's 
environment, improve the public health of Americans, and 
accommodate the country's growing population. The Nation simply 
cannot afford to keep losing construction jobs. The future of 
the industry is quite literally at stake.
    In partnership with our construction contractors, the 
carpenters and operating engineers maintain apprenticeship and 
training programs to train the next generation of skilled craft 
workers. The apprenticeship model delivers careers, not merely 
jobs for hard working members of the NCA II and other 
construction crafts. But in order to bring an individual 
apprentice through their program, which for carpenters and 
operating engineers, typically consists of 3 or 4 years of on-
the-job training and classroom instruction there must be 
continuity of work. The apprenticeship model indeed depends on 
employment and on-the-job training. Widespread unemployment 
jeopardizes the future of the industry making it impossible to 
deliver their required on-the-job training hours for a worker 
to develop his or her skills. Further congressional action is 
necessary to reverse this trend.
    Madam Chairwoman, despite all the committee's hard work, 
the Nation's water infrastructure needs call out for further 
investment. There are four steps that NCA II recommends that 
Congress take to restore employment in water and sewer 
construction. First, please continue to exercise your 
aggressive informal oversight of States and local governments, 
encouraging them to undertake the construction spending that 
Congress devoted to them in the Recovery Act. Members of the 
NCA II and other construction workers in Louisiana, for 
example, where one-third of clean water projects are not yet 
underway, need you to bring pressure to bear on the State 
government that it has failed to put your investments to work.
    Second, make another investment in clean and safe drinking 
water in the annual appropriations process. Last year's 
appropriation process more than doubled the fiscal year 2009 
appropriation, clean water infrastructure and construction 
workers urgently need more, and the sooner the better.
    Third, pass the Clean Water Act State Revolving Fund 
Reauthorization. As the committee is painfully aware, it has 
been over 20 years since the last authorization was enacted 
into law. Despite bipartisan support and passage of H.R. 1262 
in the House Chamber and bipartisan support for S. 1005 in the 
Senate Environment Public Works Committee as it was passed, the 
legislation awaits Senate floor action. We are closer than ever 
to reauthorize the program. We would encourage you to seek 
immediate passage of the bill in the Senate without further 
delay.
    Lastly, NCA II urges you to support the bipartisan Water 
Protection and Reinvestment Act, H.R. 3202. As you know, it 
delivers a water trust fund with dedicated revenues for clean 
and safe drinking water investments. This approach would commit 
long-term financing to the Nation's water infrastructure needs 
while relieving pressure on general revenue.
    Chairwoman Johnson and members of this subcommittee, we 
must not lose momentum on the Nation's economic recovery, the 
economy, the construction sector in particular is still too 
fragile. We are eager to work with you in what is left in this 
111th Congress to advance the cause of putting America back to 
work through clean water infrastructure investment. Thank you 
very much.
    Ms. Johnson. Thank you very much.
    Mr. Holloway, I know your time is very short, but I would 
like you to elaborate just a little bit more on the time in 
which the money was received and how it interfered with your 
work schedule and what can we do to improve that. I know that 
recovery money came at a time that we didn't have much choice, 
and it had to be rapid turnaround. That might be what you are 
talking about.
    Mr. Holloway. Well, I want to make sure.
    In terms of the ARRA funding, we really worked closely with 
the State, and we were able to get projects funded. In fact, 
the bids for our work came in a little bit lower, so we were 
able to fund four more projects that initially we wouldn't have 
been able to fund. So, for us, that is good.
    Our main concerns with the funding mechanism are 
flexibility and, overall, the ability to make investments that 
we think are going to the greatest needs in the system. So, 
while the State Revolving Funds are a good mechanism, number 
one, making more of the available moneys--grants--we believe 
100 percent grants is the way to go. Then in terms of the State 
Revolving Fund, while it is a useful mechanism, doing direct 
grants to cities like New York City that are responsible, 
really, for maintaining the ultimate infrastructure we think 
would be an improvement.
    Ms. Johnson. Thank you very much.
    I will call on Mr. Boozman.
    Mr. Boozman. Yes, ma'am. Thank you.
    Again, I know you have to go. I enjoyed your testimony, 
both your written and then your stated testimony.
    You know, I think what I am seeing is that--you know, as 
was said, you know, the Federal standards aren't actually 
achieving the public benefit in all cases, and you know, you 
mentioned that a majority of your capital spending over the 
last 8 years was Federal mandates. Many times those mandates do 
not appear to be--you know, you are there on the ground, you 
know, knowing your city as well as anybody and trying 
desperately, you know, to keep rates down, and you do what you 
feel like is in the best interest of the public. Yet those 
don't seem to match up many, many times, and we see that, you 
know, in the huge area that you have got, and then you are 
seeing that all throughout America.
    But as we commit to increasing funding, it does seem like 
there is a black hole out there that doesn't address, as Mr. 
Hawkins pointed out, you know, these 1860, you know, areas that 
need to be replaced and that, you know, we are saying that we 
have got to get a standard that can--you understand what I am 
saying.
    Before you leave, can you just follow up on that a little 
bit? Then we will visit with the rest of the panel about it.
    Mr. Holloway. Absolutely. Thank you for your consideration. 
I apologize for having to get back up to New York City, but I 
think there are a couple of things in terms of what I said in 
the testimony.
    First, we think that our system has incredible 
infrastructure needs. As Mr. Hawkins talked about, he has 1,200 
employees; we have 6,000; we have 14,000 miles of pipe; we have 
14 wastewater treatment plants, each of them with 5,000 moving 
parts. The state of good repair of that infrastructure and 
Federal funding--not to do all the work, but Federal support 
for decisions that we make at the local level we think is, 
number one, the best way to achieve what we need to do, which 
is treatment; and then achieve water quality standards.
    In terms of the standards themselves, there are certain 
investments. Really, this becomes an issue of scale, 
particularly in New York City, where a standard will be set. 
And because it is a national standard, even if it is delegated 
to the State, you know, the State has the obligation to enforce 
what the Federal standard is. Then even if you are able to 
demonstrate through analysis--and we do some of the most 
rigorous analysis out there--that a particular investment 
either isn't going to achieve the water quality benefit or 
isn't needed, because the public health risk isn't there, we 
would rather dedicate those funds then to dealing with the 
water maintenance and the wastewater treatment plants. We are 
constrained. We can't do that.
    Mr. Hawkins talked about raising water rates 9 percent last 
year and 12.5 this year. We just had to raise rates. We are a 
couple months ahead of you, I guess, at 12.9 percent. That was 
the fourth double-digit year of increases.
    I think one important thing with mandates is that Mayor 
Bloomberg has made unprecedented investments in water quality, 
and he is going to continue to do so. With PlaNYC, he wrote the 
book, in a way, on creating this sustainable blueprint; but 
what mandates do is they constrain your time, the time in which 
you have to build and make certain investments, and they tend 
to look at water quality issues in this mandate and enforcement 
way that doesn't take the overall needs of the whole system 
into consideration.
    So a reauthorization of State revolving funds, a grant 
program that takes those things into account and gives maximum 
flexibility to localities but also looks at the overall 
regulatory picture.
    I think, you know, the pharmaceuticals is an interesting 
example for us. We made a substantial investment in looking at 
our watershed, and we did a level of testing, and they 
developed, basically, a new science to do a level of testing to 
detect at the parts per trillion.
    Now, if you read the language in the bill about 
pharmaceuticals, it could be interpreted at some point down the 
line to say, well, the intention was to actually, you know, 
prevent these or treat them in the system, but that should only 
happen if there is a demonstrated need to do that treatment. 
Otherwise, you know, we should try to make sure that the 
dollars go where they are needed.
    I think, overall, we share the same goal as the committee, 
as the EPA, as our regulators: clean drinking water, clean 
waterways. The mayor wants to open up 90 percent of New York 
City's waterways to recreation, but we need the maximum amount 
of flexibility to do it and on a timeline that is affordable. 
You know, in water investment, in the water investment world, 
the reality is, if it happens this year, next year, you can do 
things over a time period and still achieve the overall goals.
    Ms. Johnson. Thank you very much.
    What we are going to do is ask the members who have 
questions to ask the questions. Could you submit the responses 
in writing so that you will be able to go?
    Mr. Holloway. Absolutely. Thank you.
    Ms. Johnson. First, what I would like to have you elaborate 
on is the cooperative partnerships and how we could improve 
that.
    Congresswoman Edwards.
    Ms. Edwards. Thank you.
    I just have this one question for Mr. Holloway, and it has 
to do with your point about flexibility.
    I also want to submit for the record a letter from the 
Washington Suburban Sanitary Commission, our system that really 
talks about wanting flexibility. I was curious from you what 
kind of flexibility you think that you need that you don't have 
now in terms of your ability to spend and use Federal dollars.
    Mr. Holloway. Well, flexibility for us, I think, works on 
two levels. One is flexibility in terms of spending the 
funding, and the way that that works right now--the way it 
worked in the American Recovery and Reinvestment Act is the 
entire $4 billion went through the State revolving funds. The 
State revolving funds have set up--each State differs in terms 
of the rules and the requirements and the level of 
environmental review that you need to go through for a project 
to qualify.
    So, while one thing you can do is work with the State to 
make those regulations as flexible as possible, another way to 
do it is to create parts of the funding that can go directly to 
the localities. You know, we have seen this in the Homeland 
Security funding as a model that has worked where you have 
both, you know, going through the UASI funding, going through 
the State executive, and part of the funding going to the major 
UASI cities. That has been effective. So we think a mix is a 
way to get the flexibility.
    For example, just as an example, because in New York City, 
as I said, we have 14,000 miles of water and sewer main, we 
open up streets all the time. We try to coordinate our water 
and sewer replacement projects with our Department of 
Transportation and, in some cases, utility projects. We don't 
do an individual environmental review. Every time we open up a 
street and replace a water main, we do a lot of environmental 
reviews. We don't do them for those projects. It just so 
happens that the New York State rules require an environmental 
review, so none of the clean water money can be used for those 
kinds of projects. Now, the Federal grant doesn't establish 
that restriction, but by putting it through the State revolving 
fund, that restriction then is raised for us.
    So that is flexibility on the funding side. I didn't want 
to--I saw you were------
    Ms. Edwards. No. I am just curious as to whether you have 
encountered any issues with respect to EPA requirements around 
disadvantaged communities.
    Mr. Holloway. Do you mean in terms of the Davis-Bacon or--
----
    Ms. Edwards. No, not disadvantaged businesses. 
Disadvantaged communities and applying Federal funding.
    In the ARRA, for example, there were requirements for 
serving disadvantaged communities, and that impacted at least 
our local ability to set priorities in a different kind of way. 
And I just wondered if you had encountered any of those same 
issues.
    Mr. Holloway. To my knowledge, we didn't encounter that as 
a particular issue in terms of the projects that we could fund. 
I think that--but let me get back to you on that. I want to 
make sure that we--because I know we were able to ultimately 
define the projects that were able to take advantage of all the 
funding that was made available to us, but I can get back to 
you on that.
    Ms. Edwards. Then, lastly, what do you perceive as your 
flexibility in being able to set your own priorities for 
Federal funding rather than have those, you know, set either 
outside or by other kinds of regulatory requirements?
    Mr. Holloway. Well, right now, for example, New York City 
is, as I am sure many--the council member and I were talking 
before this about consent orders and meeting requirements.
    One of the things that has been certainly at the Federal 
and State levels is the way that you approach, for example, 
combined sewer overflows, which is through tanks, building what 
is now called ``gray infrastructure'' and putting it in the 
ground.
    You know, the one example that I have been using over and 
over since I came to the agency is we have a 50-million-gallon 
tank that we are about to turn on in Brooklyn that cost $422 
million to build. Now, that will have a substantial impact on 
one tributary in New York Harbor, and for that tributary that 
is undoubtedly a good thing, and you want to stop as many CSOs 
as you possibly can.
    However, when you do the modeling and you ask, ``Well, for 
that $422 million, what is the overall water quality impact in 
the harbor in New York City?'' the improvement is projected to 
be less than 1 percent.
    So then the question becomes, ``Well, what would you do 
with that half billion dollars?'' which is basically what it 
is. What we are looking at in cities--I think D.C. is making 
some move here, and Philadelphia has put in proposals.
    We think green infrastructure and trying to do more to 
capture, at the source, stormwater and being able to make these 
investments on a timeline. A lot of these technologies have to 
be tested. You know, of New York City's permeable surfaces, we 
don't have much permeable surface. In fact, we are, you know, 
creating the green infrastructure projects that will actually, 
meaningfully, capture stormwater and deal with it. It is 
something that I actually brought in a new commissioner for, 
sustainability, whose primary job is to deal with this issue. 
Now, in order for us to succeed, the funding is starting to be 
there. I think the ARRA funding that was specifically made 
available for green infrastructure is a great signal.
    On the regulatory side, though, there has to be a 
willingness to say, Well, wait a minute. If you are going to be 
making these investments, then green infrastructure can not 
only give you the water quality improvement but also the long-
term public benefit of a park or a swale or trees or all of the 
things that those kinds of investments can provide.
    Are we going to be able to have the willingness to open up 
the current agreements and orders and negotiate timelines and 
frameworks that are going to enable us to try, fail and try 
again, but ultimately get to the same water quality standard in 
the end, which we think we can do? That is a big challenge, and 
EPA has made some good--we have heard some good things from the 
EPA on that, but the proof is really going to be in the pudding 
there.
    Ms. Johnson. Mr. Holloway, you passed the time for you to 
go.
    Mr. Holloway. Well, thank you very much.
    Ms. Johnson. If there is any other testimony you would like 
us to know about, you may send it, and we will be happy to 
receive it.
    Mr. Holloway. Absolutely. Thank you.
    Ms. Johnson. Thank you.
    Now we will go back. Thanks to all of you for your patience 
in allowing him to complete his work and to get back.
    Before we go to Mr. Boozman, our chair of the full 
committee has come in. He is always very knowledgeable, so I am 
going to recognize him.
    Mr. Oberstar. Thank you, Madam Chair.
    I just want to sit here and listen and take in the 
testimony. I wanted to thank the Commissioner from New York for 
his contribution and to welcome City Council Member Jan 
Marcason and to thank her for the warm welcome I received in 
Kansas City, the city of water and fountains and beauty. I had 
never visited before, and I was treated to a great eye-opening 
experience. Thank you very much.
    I look forward to hearing your testimony.
    Ms. Johnson. Thank you.
    Mr. Boozman.
    Mr. Boozman. Mr. Hawkins, you testified about all of the 
areas and of running into different roadblocks, you know, as 
far as getting your permits and things. It sounds like you are 
an old permitter, and now you are, you know, on the other side 
of the fence. You know, we have statistics about how long it 
takes to complete a road, you know, once the project--and, you 
know, with all of the hoops you have to jump through.You know, 
it might take 9 or 10 years, you know, to do that.
    Tell us about, you know, the similar stuff that goes on in 
getting through the permitting process.
    I guess the other thing I would like to know--and you all 
are welcome to jump in--is how much does that cost the system, 
as far as in the road situation, if we could get rid of some of 
the duplication, you know, some of the permitting process, and 
not do away with what we are trying to accomplish, you know, in 
protecting the public, protecting the environment, doing things 
right? You know, if we could streamline the process, how much 
money would that save you as you try and grapple with these 
difficult situations?
    Mr. Hawkins. Thanks for that question.
    If I may just for one second respond on the issue of my 
compatriot from New York, I would state that, as to his notion 
that direct grants to cities offers more flexibility, in fact, 
because the District of Columbia is both a city, a county and a 
State, that is, in fact, what has happened here, and we have 
had great flexibility as a result. So it does, in fact, work 
that way.
    The last time I actually testified before this hearing, I 
was here as the director of the Department of the Environment, 
which regulates my current agency. I can't believe some of 
those decisions I made when I was a regulator, but we took 80 
percent of the Clean Water revolving funds that we have coming 
into the city of the District and are distributing them to 
projects, greening everything you can imagine. We are greening 
police stations, parks and rec centers, libraries, median 
strips, roadways.
    We have this multiplicity of projects because of the 
flexibility we were able to administer since we were a city 
directly gaining money and distributing it. So I can testify 
that, on the only occasion like this where the city is also the 
State, it does work well and it enables flexibility, so it is a 
good thing.
    As far as the permits, it is a fascinating question. Since 
you know the city, on 17th and 18th Streets, going right up 
through Adams Morgan, there is a lot of work that has been 
going on along those streets for a long time. The way this 
works is we, DC Water, produce our capital program to the 
District Department of Transportation 2 years in advance so 
they can plan ahead so that, when we are doing roadwork in the 
street or if they are working in the street, you coordinate it.
    Of course, ARRA--we aren't complaining, but that came in in 
the midst of the process outside of the standard planning 
system. What started to happen is that we would initiate a 
project that was ARRA-stimulated off schedule, and we would end 
up with a project that was not coordinated with DDOT, not 
because anyone had done anything wrong.
    So a number of the projects got held up. That the standard 
permitting system is done in advance is for good reason: so 
that you don't end up with DDOT resurfacing a road and then us 
coming in 2 months later and digging it back up again and 
replacing the pipe. We want to do that both at the same time.
    So there have been challenges in trying to match up the 
existing permitting system, which is done with many years of 
advance preparation with a system that is putting new money in 
on a very short time frame, for obvious reasons.
    As to the capacity to improve the speed of decisions as far 
as how much money it would save, there is no question we spend 
a lot of money on coordination. In fact, I just authorized--we 
are going to put on the Web here in the District a visual. We 
just authorized it with the Department of Transportation. You 
or anyone else will be able to look at the city and any street 
on a GIS basis and see every project that is coming visually. 
So everyone becomes an overseer of us because they can all 
check whether or not we have managed and planned, and we are 
hoping that that is going to substantially increase the 
efficiency of being able to integrate new funding along with 
existing funding.
    The last point that is interesting about the District is, 
in the study, you have heard much about the $300 million that 
EPA has estimated for this massive need for infrastructure. The 
highest per-capita need in the United States of America for 
wastewater infrastructure is Washington, D.C.--$4,315 per 
capita. That is not per customer. That is per capita in 
Washington, D.C. in order to improve the wastewater 
infrastructure for this city.
    So the need is just--it is extraordinary what we face, and 
we have charted out rate increases, and they are constant for 
the next 20 years. This is going to be a system. We will get 
better at it because of its scale, but it is really daunting 
when you think of what we need to do for the public that we 
serve.
    Mr. Boozman. Thank you, Madam Chair.
    Ms. Johnson. Thank you.
    Congressman Garamendi.
    Mr. Garamendi. Madam Chair, a couple of quick questions. 
Like our witness from New York, airplanes to the west coast are 
hard to find.
    I want to go to section 220, which no longer is in the law, 
and get to the question of whether it makes sense to put it 
back in. A couple of things come immediately to mind. One is 
the question about the greening, which we heard both from New 
York and Washington. Those are and can be alternative water 
supply systems as well as sanitation issues. Certainly, this is 
an issue that we are seeing a lot of in California, which is 
where we have serious problems.
    Also on the sanitation side, those alternate systems which 
once could have been funded by section 220, can supply potable 
water, such as recycled water, which, at least west of the 
Rocky Mountains, is a very, very big deal.
    So I don't know if I have a question. I think it is just a 
comment to the chair and to the committee members that we give 
very serious consideration to reauthorizing the section 220 
funding programs that they provide.
    If there are any comments from any of the witnesses, we 
would love to hear them. I would have asked the fellow from New 
York to be very specific about exactly what kinds of mandates 
he does not need. I would suggest that he probably needs those 
mandates upstream of his water supply but maybe not downstream, 
since his system exits into the ocean. But that is a question I 
will ask him in writing.
    Mr. Garamendi. So, if anybody would like to comment on the 
220 section, I would be happy to hear that quickly, and then I 
am running.
    Mr. Hawkins. I would have a quick comment.
    On the question of the flexibility for the mandates, DC 
Water has a $3.8 billion capital campaign for the next 10 
years. Half of that is dictated by Federal mandates. So fully 
half of what we must do is not for engineering excellence--
although, we, of course, will employ it--but the first category 
is what we just have to do to comply with the laws, whether or 
not we would have done it otherwise.
    When we prioritize all of our projects, the second category 
is health and safety. The third category is what we have to do 
for our fellow agencies. The fourth category is best 
engineering practices.
    Now, we hope to do all four, but some might argue that 
because it is a mandate doesn't necessarily mean it is the 
engineering practice you would implement otherwise.
    Mr. Garamendi. Excuse me. I did receive your correspondence 
in the bill, the water bill, that said it had to do with the 
storm drains and the sanitation drains being together and you 
needed to find some way to deal with that. The reason you need 
to deal with it is, when you have a storm you are dumping some 
really nasty stuff into the Potomac River.
    Is that a mandate you would like to do away with?
    Mr. Hawkins. No. The mandate that we would like--well, not 
``do away with,'' but open to flexible interpretation.
    At the moment, our response is to combining sewers. Of 
course we want to respond to that. There are 3 billion gallons, 
most of which go to the Anacostia, actually, not to the Potomac 
River--Rock Creek. But the mandate is the solution. The 
solution, which is a consent decree, is the underground 
concrete and steel caverns. We are actually just about to start 
a 26-foot boring all the way up the Anacostia River, from down 
at Blue Plains up to Poplar Point and then to RFK.
    The question is, can we open up--there is the MS4 permit 
system becoming more stringent------
    Mr. Garamendi. Excuse me.
    Mr. Hawkins. Yes.
    Mr. Garamendi. For all the witnesses who are interested in 
the mandate issue and our fellow from New York, if you could, 
be very specific about how the present mandates impact you and 
how you would change the law.
    Mr. Hawkins. OK. Sure.
    Mr. Garamendi. I am out of time in many, many ways. I thank 
you so very much.
    Madam Chairman, thank you for your courtesy.
    Ms. Johnson. Thank you.
    Ms. Marcason.
    Ms. Marcason. I am going to have to get back to you on the 
specifics.
    When we created our overflow control plan, we made it an 
adaptive plan, and I think one thing that we--with over 25 
years of the plan, we hope that there are a lot of new emerging 
technologies that we can take advantage of. But once you have a 
consent decree in place, you are locked into the technology 
that you set out in your plan.
    So another part of that is we need to make sure that we can 
modify our plans going forward to make sure that we are able to 
capture the benefit of new ideas, new technologies, new thought 
processes that are coming down the road.
    Mr. Garamendi. I have 18 seconds remaining here.
    That specific kind of information, how would you change the 
law to give you that flexibility? Understanding that the 
consent decree--you know, it is legal, but you need the 
flexibility. So how would you change the law to accomplish 
that? That is what I would like to have because, ultimately, 
that is what we must do here.
    Ms. Marcason. Right.
    Mr. Garamendi. Thank you, Madam Chair.
    Ms. Johnson. Did you want to answer?
    Ms. Marcason. I would rather research that and talk to the 
people back at the National League of Cities and in my 
community. I am sure we could come up with some good 
suggestions, though, so I appreciate the opportunity to do 
that.
    Ms. Johnson. Mr. Chairman.
    Mr. Oberstar. Madam Chair, if I may intervene at this point 
so I can get off to another matter dealing with the oil spill 
legislation, I very much appreciate this panel. I have already 
spoken of my session with Ms. Marcason in Kansas City and, Mr. 
Hawkins, of your splendid stewardship here in the District and 
of your contributions on the Chesapeake Bay cleanup, and of the 
contributions of the other two members of the panel.
    What is the age of the oldest sewer and the oldest 
waterline in the WSSC system?
    Mr. Hawkins. The WSSC I can't speak to. The WSSC serves 
Montgomery and Prince George's.
    Mr. Oberstar. Sure, the metropolitan area. Right.
    Mr. Hawkins. And DC Water--actually, we serve WSSC. A lot 
of their flow comes from the Blue Plains plant. We have 
assessed the age of our waterlines. Now, sewer is much harder 
to tell. They are deeper in the ground, and there is not as 
much pressure. We have waterlines in this city that were put in 
before the Civil War, and we have a report that I can send you 
that gives you the age of the waterlines. As for the sewer 
lines, most of our lines, we are not sure how old they are, so 
we don't have as clear an answer.
    Mr. Oberstar. Before the Civil War. Some of those are 
probably still wooden lines.
    Mr. Hawkins. We believe we have gotten all the wooden lines 
out of the city distribution system. I can actually show you 
some as kind of a tour, but I think we have gotten all the 
wooden lines.
    Mr. Oberstar. Do you still have clay pipe in the ground 
anywhere?
    Mr. Hawkins. Again, nothing that we know of having clay 
pipe, but we do have--we have pipes that are remarkably old, 
but we don't believe we have any clay or wood pipes in this 
system that we have.
    Mr. Oberstar. Clay works very well in acid soil. We have 
concrete, and that tends to be deteriorated by acid.
    I ask this because, all over the country, we are at a stage 
of--kind of over the tipping point of the capability of the 
existing water and sewer lines to serve the increasing demand 
for water and wastewater treatment. The replacement cost is 
just escalating enormously from the time when I started on the 
Hill as the clerk of the Subcommittee on Rivers and Harbors in 
1963. It seems like an eternity ago. We were talking then about 
aging water and sewer systems, and we still are, and the 
replacement of those systems is still a very costly matter 
whether in real dollars, actual dollars or in updated dollar 
costs.
    Since the Reagan administration terminated the grant 
program, it put smaller jurisdictions under greater financial 
pressure because, right at that time in 1981-1982, it was the 
point at which the wastewater treatment grant program was to 
switch from a preponderant 60 percent of the funds going to 
major metropolitan areas to 60 percent of the funds going to 
municipalities under 250,000, even under 50,000.
    With President Reagan and his Budget and Reconciliation 
Act, I remember being on that conference committee so very 
clearly it is like it happened yesterday, and the Senate voting 
against our House proposal 5-4 without even asking the 
Democratic members on the Senate conference committee. They 
just voted it down and converted it from a $6 billion grant 
program to a $2 billion for 1 year and then converted it to a 
revolving loan fund. That meant that smaller jurisdictions, 
rural communities, had to shoulder a higher cost than they 
otherwise would have, had there been a grant program.
    So now we have those costs continue, so there have been 
fewer dollars invested because municipalities had to borrow 
money at a higher cost and raise their fees. I know that in 
Minnesota, if you live anywhere within the seven-county Twin 
City Metropolitan Area, your water/sewer bill is about $15 a 
month. If you live outside the seven and if you are in a 
municipality of 2,500 or less and if you live outside Twin City 
Metro Area with the same sized population area, your monthly 
sewer bill is around $54.
    That is a huge jump, a huge cost, to people who have fewer 
options. Municipalities have less revenue and less opportunity 
to generate the debt retirement that they need to make the 
investments in their water and wastewater treatment systems. So 
there is the continuing age of our systems, the continuing 
vulnerability of older material to deterioration.
    You mentioned, Mr. Hawkins, the blowouts that occurred, the 
big one on River Road. There was one just yesterday morning as 
I was driving in, and I heard the radio. Of course, I didn't 
have to avoid it, it was up in Montgomery County. And then you 
regularly have these blowouts in the District of Columbia.
    How do you keep up with this? Is INI, infiltration inflow, 
sufficient technology? What else do you need to do to keep 
track of your system and then make the investments necessary?
    Ms. Marcason, and I will ask our other two witnesses as 
well.
    Mr. Hawkins. I mean the average residential single-family 
bill in Washington, D.C. Is slated on September 1 to go up to 
$61. In New York, the average monthly bill is about $80, so 
they are very expensive. We have gone up, as I said, 30 to 40 
percent over the last 3 or 4 years.
    Our biggest challenge, I think, in many of the major cities 
in the country is that most of the systems that were put in--
the average age of waterlines in Washington, D.C. is 77 years, 
so they were put in before most of our current ratepayers were 
here. What we have been funding for the last four our five 
decades is operation and maintenance costs of these systems--so 
how much it takes to keep it going, but not a capital 
replacement program.
    So in Washington, D.C., our budget for capital improvement 
is one-third of 1 percent of the infrastructure in any given 
year, which means it would take us 300 years to replace the 
scheme.
    The rate proposal that I have made for 2011, should the 
board decide to approve it, which they will do in September--I 
hope--will allow us to increase our capital replacement program 
to 1 percent a year, which would allow us to replace the system 
in 100 years. That is actually double the national average. The 
national average is a half a percent a year. That increased by 
triple when I looked at my compatriots to my left. We have got 
to hire people. We need trucks. We need material. These are 
jobs that can't be exported. They must be done on the line.
    They are so meaningful to the neighborhoods and the people 
that are the recipients of the service. There is such a direct 
connection between our ability to raise the revenue to do 
fundamental infrastructure--the jobs, the equipment we buy, the 
trucks we purchase, and all the attendant pieces that come 
together.
    The biggest single challenge we have--we have a fair amount 
of knowledge of this system. We have tested it. We know what we 
need to do--is converting the awareness of our ratepayers to 
capital cost replacement, which literally hasn't been on most 
bills for a long period of time. At the same time, we are also 
doing these giant, long-term control plans, which--your city 
has done a remarkable plan, but it is $1.5 billion or $2.5 
billion.
    Ms. Marcason. $2.5 billion.
    Mr. Hawkins. Ours is $2.8 billion. That is on top of the 
capital replacement. So it is expensive even when you are 
innovative, and you add these costs together, and they become 
extraordinarily daunting to cities of every size.
    Mr. Oberstar. Is the revolving loan fund of use to you, 
then, in that construct?
    Mr. Hawkins. Absolutely. The projects that we are doing--
because of Washington, D.C., the drinking water revolving 
funds, for example, come directly to DC Water, and we are using 
those funds to replace valves. It is very operational. We are 
getting out into the system and making operational capital 
improvements to the system that we would not have otherwise 
made. So when you see a project--when you are driving around 
town and you see someone digging down, replacing a valve, that 
is likely a stimulus project.
    Mr. Oberstar. Oh, I clap and I cheer when I see that. In 
fact, I would like you to build all those water and sewer lines 
about 2 feet aboveground so people will bump into them and know 
what we have done for them, because we bury our good deeds in 
the water and sewer systems.
    Mr. Hawkins. Yes, that is true.
    Mr. Oberstar. The public never sees them.
    I think Mr. Boozman will fully appreciate that and will 
agree with me on that. We want constituents to know what we 
have done on their behalf.
    Tell me, before I go to Ms. Marcason, where is the Potomac 
swimmable above Blue Plains?
    Mr. Hawkins. I don't know the answer to that question. It 
is not swimmable for its length--well, actually, when I was at 
the Department of the Environment, we had an exception for 
professional athletes in triathlons; but otherwise, the water 
in the Potomac or any of the waterways in the District are not 
swimmable. And I think that is true fairly far to the north, 
but I am not sure exactly where the cutoff is.
    Mr. Oberstar. Certainly to Little Falls of the Potomac, the 
pumping station.
    Ms. Marcason.
    Ms. Marcason. I think, you know, cities and towns all 
across America have the same issue.
    Our water pipes are 1850's. Men went off to fight the Civil 
War, and came back and completed our Main Street water/sewer 
system. So it is not just the water system. We have aging 
infrastructure on our roads, in our buildings, and so it just 
compounds the issue. But we have increased our rates 44 percent 
since fiscal year 2008 in Kansas City, and we have double-digit 
rate increases scheduled throughout our overflow control plan 
for the next, probably, 5 to 7 years. Depending on the success 
of our project, you know, that could be extended. I mean we 
hope to see a leveling off, but then at the end of the project, 
if we do have to build those big tunnels, they will jump up 
again.
    So I think that is part of the reason we are trying to make 
sure these green solutions could be an option. They are, 
hopefully, less expensive, but we are having to do a lot of 
testing. You know, they are a little bit untested. We are doing 
a lot of modeling right now. I think that is why we got an 
additional 5 years. We got 25 years to do our plan. Part of 
that is so we can gauge the effectiveness of the massive 
project we are doing, and if that is true and since it did save 
us $10 million in one area, we hope that is something that 
could be replicated, and it could be a way that we could 
address this in a more cost-effective manner.
    Mr. Oberstar. Well, permeable parking areas and shopping 
centers and sidewalks and even roadways--or at least shoulders 
on roadways--are very important, very critical support 
mechanisms for our dealing with runoff.
    Ms. Marcason. Right.
    Mr. Oberstar. We are having vastly more runoff than we did 
100 years ago or even 50 years ago. We have paved over more of 
America.
    Ms. Marcason. That is right.
    Mr. Oberstar. It isn't an increased amount of rainfall; it 
is an increased amount of runoff. We need to save that water. 
We need to get it into groundwater, and so these are very good 
solutions.
    Mr. Vander Molen, that doesn't do much for equipment 
dealers, does it? You want to have more of your customers 
buying equipment and putting it to work.
    In the stimulus program from our committee of, roughly, $4 
billion, 100 percent of that money is out. Let me just check my 
report card. Of $3.8 billion, 100 percent is out to bid; 1,962 
projects out to bid; 1,957 are under contract; and for 1,884 
projects work is underway. So your equipment is working, and 
there are some members of the operating engineers who are out 
there operating that equipment.
    Now, if the Senate were to rise from its slumber and pass 
something and move the Clean Water Revolving Fund, what would 
that do for your sector and your members?
    Mr. Vander Molen. If I could say so, our industry has got a 
lot of unused resources right now that are ready to go to work. 
With jobs the way they are and with infrastructure the way it 
is, our equipment and facilities and inventories--they are 
ready to go to work.
    Congresswoman, I have to excuse myself. I have got a plane 
to catch to go back to Jackson, Mississippi. If you have got 
other questions that you would like to address to me, I would 
be glad to respond to them in writing, but I really appreciate 
the opportunity to be a witness here at this subcommittee.
    Mr. Oberstar. Thank you for your splendid contribution. We 
appreciate that.
    Ms. Johnson. Yes, thank you very much.
    The only thing I would ask is whether or not the equipment 
has changed to the point that it interferes with your 
investment or the technology you are using on these projects.
    Mr. Soth. Madam Chairwoman, the equipment improves 
dramatically from year to year. This is equipment that we are 
pleased to operate, some equipment of which is Vermeer 
equipment. Our members are pleased to take advantage of the 
opportunities offered by Congress for this job creation. We 
have advocated for an increase in the appropriations.
    Mr. Chairman, we have appreciated your informal oversight 
of the State and local governments on the Recovery Act. We 
would just assert that more can still be done there. We 
appreciate your help, but we have got States like Louisiana 
that have yet to undertake a third of their construction 
projects. More can be done there.
    We are a year and a half, almost, into the Recovery Act, 
and States that have failed to go ahead and undertake those 
projects to which you have devoted major resources are still a 
problem for us. And with 20 percent-plus unemployment in the 
construction industry--and it is certainly higher for some of 
our local unions around the country--we desperately need your 
assistance in exercising your informal oversight, even though 
those State governments have complied with the letter of the 
Recovery Act.
    Mr. Oberstar. We are watching them, and for those who 
haven't been in compliance and who haven't gotten their 
projects under contract, Ms. Johnson and I have sent letters 
out to the Governors and to the heads of the Public Utilities 
Commissions and told them to get started.
    Now, unfortunately, the Senate struck our language that 
imposed the requirement of ``use it or lose it.'' If within 120 
days you haven't used your funds by obligating and getting bids 
out, then that money would go to States that could use it. The 
Senate struck that language, but we thought that was a very 
powerful forcing mechanism to get States to comply.
    Mr. Hawkins. If you will permit me, on the question of 
equipment or hiring, I would say that, in fact, the low-impact 
development--the kind of strategies that are in Kansas City, in 
fact--are driving purchases of equipment that are quite 
dramatic.
    One of the weaknesses--or not weaknesses, but unknowns in 
the low-impact development arena--is to build a big concrete 
tunnel. You are pretty clear about how you maintain it over 
time and how you keep it together to attain performance.
    One of the big questions on the low-impact development is, 
after you put in this incredibly dispersed system of thousands 
of installations of low impact, whether it is on the streets or 
walkways or roofs, you need equipment, new equipment, to go out 
and maintain this over time. Who goes back to the rain garden 5 
years after it was installed to make sure that, when it fills 
up with silt, there is something to remove it? We are buying 
new equipment to implement maintenance programs for the new Bay 
savers that are part of this street design that remove 
pollutants.
    So, in fact, there are enormous equipment needs in building 
an infrastructure we, in fact, don't have to a great extent, 
which is an infrastructure around the long-term maintenance of 
low-impact development.
    I can also tell you that to attain the projects we are 
planning over the next 2 to 5 years, we are probably hiring 20 
to 40 engineers at DC Water and a much larger number as 
contractors. So there is no question that when this work does 
gear up, we will directly need the kinds of services that are 
provided on that front.
    Mr. Oberstar. Thank you for your energy, for your 
enthusiasm and for your remarks. We really appreciate seeing 
your members out on the job sites, running that equipment and 
making things work.
    I am going to yield at this point, and Chairwoman Johnson 
has an important announcement to make.
    Ms. Johnson. Thank you very much.
    As of 3:47 p.m., the oil spill has been capped, and there 
is no more leaking. That is the best news I have heard for a 
while.
    Now, Ms. Edwards had a question.
    Ms. Edwards. Thank you, Madam Chairwoman. That is the best 
news that we have heard in a long time, so thank you for that.
    I really appreciate your testimony today.
    Especially Ms. Marcason, I have been working really hard to 
try to pass legislation to create investments in green 
infrastructure like you are working on in Kansas City and 
across the country. My legislation, H.R. 4202, the Green 
Infrastructure for Clean Water Act of 2009, was really designed 
to help communities like Kansas City address these vexing water 
pollution problems.
    You know, just as I was listening to the testimony, I 
actually thought about our recent Fourth of July, and over the 
Fourth of July--I have a water system that is principally 
serviced by the Washington Suburban Sanitary Commission, which 
is serving 1.8 million customers in Prince George's and 
Montgomery Counties. Over the Fourth of July, we had water 
restrictions because of a major flaw which was going to lead to 
a break--a 96-inch pipe. Thankfully, because of detection 
equipment technology that had been installed, the system was 
able to look at that and know that it was failing, even though 
it meant for our 1.8 million customers, water restrictions over 
a major holiday and when we would have had fireworks. So, you 
know, very odd.
    But WSSC, I think like Kansas City and like jurisdictions 
across the country, has a water deficit. We talk about all 
kinds of deficits. We have a water infrastructure deficit in 
this country, and it means that we are not spending what we 
need to on our water infrastructure that is about productivity 
and efficiency. It is about business survivability.
    Can you imagine if that 96-inch main had actually broken? 
It would have interrupted all kinds of business and commerce 
throughout our communities, and we know that those needs are 
great around the country.
    So I want to thank you all for the work that you do, but we 
just have to put people to work improving our Nation's water 
and sewer infrastructure. In my view, there is no bad spending 
that goes on there. If in our jurisdiction we have $10 billion 
in unmet needs, that is 180,000 jobs. In your jurisdiction, it 
is $6.5 billion in unmet needs. For every billion, as you point 
out in your testimony, Ms. Marcason, that is 18,000 jobs.
    So I hope that we over these next several weeks will really 
also begin to make the commitment to green infrastructure as a 
technique so that we can use it in terms of prioritizing our 
needs in our communities, and that we can use green 
infrastructure and the new technologies that are available that 
relieve the pressure on these sort of high-intensity and high-
cost projects in some of our communities.
    The legislation that I have introduced would require the 
Environmental Protection Agency to really examine how green 
infrastructure approaches can be incorporated into clean water 
programs, including permitting and enforcement, and we heard 
testimony about that earlier.
    My question for you is that we are at this really critical 
time right now, with our infrastructure deteriorating, and 
investments really that need to be made to the most 
deteriorating infrastructure needs.
    Can you explain, if you would, Ms. Marcason--and 
particularly Mr. Soth--what this means in terms of creating 
jobs apart from the--you know, so the real question is 
improving our Nation's water infrastructure. Tell me what kind 
of jobs. Tell me how much those jobs pay. Tell me what that 
means to our business community in terms of its productivity.
    I will start with you, Ms. Marcason.
    Ms. Marcason. Well, we are very excited about the range of 
jobs that the green infrastructure offers.
    There is traditional engineering, because it takes an 
engineering plan. But it is also for people who like to work 
outside, if you like to work with plants--people who might not 
want a desk job. So we are doing a lot of job training with the 
using of plants. We have a training program of young people in 
a disadvantaged neighborhood who are learning how to lay 
sidewalks, permeable sidewalks. There are some very important 
construction-type jobs, and there is also, obviously, the 
engineering and the architectural and the traditional jobs.
    We see the opportunity to get young people very involved in 
new job skills, to get them excited about doing this and 
excited about the contribution they can make to making their 
community a safer and a better place to live. We feel like that 
is going to have the additional benefits of getting them 
invested in beautifying their community and having a good job.
    So we have really looked at how we can tap into the 
resources of people who have been underemployed, and we work 
very closely with our unions and with those types of job 
training programs in making sure that we do address the needs 
of each of the communities, but also of our workforce. It is 
really unacceptable to have such a high unemployment rate. We 
feel like these types of emerging jobs will have many benefits.
    I just want to say, your district is very lucky because we 
have another advocate for the green programs in our Congressman 
Cleaver, and it really does take that political will to get the 
communities moving in that direction. So I am sure your 
community will benefit from that.
    Ms. Edwards. Thank you.
    Ms. Marcason. Did I answer your question?
    Ms. Edwards. You did.
    Mr. Soth, I wonder if you could tell me, though really 
specifically, tell me the kinds of jobs that your workers could 
be employed at. You know, say, in my community, it is 180,000 
jobs with this $10 billion of deficit and spending and water 
infrastructure that we have. Who is working? What kind of job 
are they working at? What are they paid at? If you are an 
apprentice and you start out and you go through the number of 
weeks and months and years that it takes to train, then, you 
know, where does that land you?
    Mr. Soth. Our apprenticeship model in the operating 
engineers is typically a 4-year apprenticeship program. 
Oftentimes, an apprentice will start out at 50 or 60 percent of 
a journey-level worker's wages and then progress. As that 
individual gets more on-the-job training, more classroom 
instruction, that individual will advance their wages to a 
place that they are earning journey-level worker wages.
    The most recent Bureau of Labor Statistics labor market 
data suggests that an average wage for a construction worker, a 
nonsupervisory production worker in construction, is over $23 
an hour. Of course, operating engineers and carpenters, because 
of their skill levels, are oftentimes able to earn more money 
than that.
    I think projects vary, obviously, a little bit, so you will 
get a different composition of craft workers on each individual 
project, but it is common that you would find an operating 
engineer operating a backhoe or a crane. Obviously, there are a 
lot of labor union members--pipe layers, for example, building 
wastewater in the ditch, as we say, laying that pipe. So, 
really, there is a whole range of crafts there. A lot of that 
work is performed by unions, like the carpenters and the 
operating engineers, and we are pleased to do as much of it as 
we can.
    As I mentioned, the high unemployment rate has put a lot of 
pressure on the families of carpenters and operating engineers, 
and anything we can do to get back to work would be much 
appreciated. We would like to think that those four policies 
outlined and suggested by NCA, too, are going to be helpful in 
that regard in putting America back to work through these clean 
water infrastructure investments that you have been so kind to 
commit to restoring the American economy.
    Ms. Edwards. Thank you very much.
    Thank you, Madam Chairwoman.
    The point is there are jobs. There are jobs now, and it is 
infrastructure that we know that we have to fix. Otherwise, it 
interferes with our competitiveness for the 21st century.
    Thank you, Madam Chairwoman.
    Ms. Johnson. Thank you.
    Ms. Marcason, you indicate in your testimony that you would 
like to see the passage of H.R. 1262.
    Due to the proposed sewer overflow grant program, and the 
set-aside is 20 percent of those grants for communities 
implementing green infrastructure and other water and energy 
efficiency improvements, do you feel there would be an 
opportunity for your district to be able to access that?
    Ms. Marcason. Definitely. Definitely.
    We are doing a lot of demonstration projects right now, and 
I feel like we need to probably do more so we can know what is 
going to work the best. I mean this is still an emerging 
technology, so I think the investment is very important up 
front. Some of the strategies may be more successful than 
others, so we are working toward 20 percent. I am not sure that 
we are quite there yet, but I think it is going to pay off down 
the road if we make the investment in emerging technologies 
now.
    Ms. Johnson. Thank you very much. That is kind of new for 
everyone. I think that ends our hearing today, and let me thank 
all of you for coming as witnesses. All of you have been very 
helpful. Thank you.
    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
</pre></body></html>
